<html>
<title> - SOFTWARE UPDATE REQUIRED: COVID-19 EXPOSES NEED FOR FEDERAL INVESTMENTS IN TECHNOLOGY</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   SOFTWARE UPDATE REQUIRED: COVID-19
                        EXPOSES NEED FOR FEDERAL
                       INVESTMENTS IN TECHNOLOGY

=======================================================================

                                HEARING

                               BEFORE THE

                        COMMITTEE ON THE BUDGET
                        HOUSE OF REPRESENTATIVES

                     ONE HUNDRED SIXTEENTH CONGRESS

                             SECOND SESSION
                               __________

            HEARING HELD IN WASHINGTON, D.C., JULY 15, 2020
                               __________

                           Serial No. 116-29
                               __________

           Printed for the use of the Committee on the Budget
           
           
                  [GRAPHIC NOT AVAILABLE IN TIFF FORMAT]           


                       Available on the Internet:
                            www.govinfo.gov
                                                        
                              ___________

                    U.S. GOVERNMENT PUBLISHING OFFICE
                    
42-321                    WASHINGTON : 2020                               
                            
                            
                            
                        COMMITTEE ON THE BUDGET

                  JOHN A. YARMUTH, Kentucky, Chairman
SETH MOULTON, Massachusetts,         STEVE WOMACK, Arkansas,
  Vice Chairman                        Ranking Member
HAKEEM S. JEFFRIES, New York         ROB WOODALL, Georgia
BRIAN HIGGINS, New York              BILL JOHNSON, Ohio,
BRENDAN F. BOYLE, Pennsylvania         Vice Ranking Member
ROSA L. DELAURO, Connecticut         JASON SMITH, Missouri
LLOYD DOGGETT, Texas                 BILL FLORES, Texas
DAVID E. PRICE, North Carolina       GEORGE HOLDING, North Carolina
JANICE D. SCHAKOWSKY, Illinois       CHRIS STEWART, Utah
DANIEL T. KILDEE, Michigan           RALPH NORMAN, South Carolina
JIMMY PANETTA, California            KEVIN HERN, Oklahoma
JOSEPH D. MORELLE, New York          CHIP ROY, Texas
STEVEN HORSFORD, Nevada              DANIEL MEUSER, Pennsylvania
ROBERT C. ``BOBBY'' SCOTT, Virginia  DAN CRENSHAW, Texas
SHEILA JACKSON LEE, Texas            TIM BURCHETT, Tennessee
BARBARA LEE, California
PRAMILA JAYAPAL, Washington
ILHAN OMAR, Minnesota
ALBIO SIRES, New Jersey
SCOTT H. PETERS, California
JIM COOPER, Tennessee
RO KHANNA, California

                           Professional Staff

                      Ellen Balis, Staff Director
                  Becky Relic, Minority Staff Director


                                CONTENTS

                                                                   Page
Hearing held in Washington, D.C., July 15, 2020..................     1

    Hon. John A. Yarmuth, Chairman, Committee on the Budget......     1
        Prepared statement of....................................     4
    Hon. Bill Johnson, Vice Ranking Member, Committee on the 
      Budget.....................................................     6
        Prepared statement of....................................     8
    Teresa Gerton, President and Ceo, National Academy of Public 
      Administration.............................................    11
        Prepared statement of....................................    14
    Jennifer Pahlka, Founder, Code for America, and Co-Founder, 
      U.S. Digital Response......................................    26
        Prepared statement of....................................    28
    Rebecca Dixon, Executive Director, National Employment Law 
      Project....................................................    36
        Prepared statement of....................................    38
    Robert Wah, MD, Physician Leader in Healthcare and Technology    49
        Prepared statement of....................................    52
    Hon. Steve Womack, Ranking Member, Committee on the Budget, 
      statement submitted for the record.........................    84
    Hon. Sheila Jackson Lee, Member, Committee on the Budget, 
      statement submitted for the record.........................    87
    Hon. Bill Flores, Member, Committee on the Budget, questions 
      submitted for the record...................................    92
    Hon. George Holding, Member, Committee on the Budget, 
      questions submitted for the record.........................    93
    Answers to questions submitted for the record................    94

 
                   SOFTWARE UPDATE REQUIRED: COVID-19
                        EXPOSES NEED FOR FEDERAL
                       INVESTMENTS IN TECHNOLOGY

                              ----------                              


                        WEDNESDAY, JULY 15, 2020

                          House of Representatives,
                                   Committee on the Budget,
                                                   Washington, D.C.
    The Committee met, pursuant to notice, at 2:07 p.m., via 
Webex, Hon. John A. Yarmuth [Chairman of the Committee] 
presiding.
    Present: Representatives Yarmuth, Moulton, Higgins, 
Schakowsky, Kildee, Panetta, Morelle, Horsford, Scott, Jackson 
Lee; Woodall, Johnson, Flores, Meuser, Crenshaw, and Burchett.
    Chairman Yarmuth. This hearing will come to order.
    Good afternoon, and welcome to the Budget Committee's 
hearing entitled Software Update Required: COVID-19 Exposes 
Need for Federal Investments in Technology.
    I want to welcome our witnesses who are here with us today. 
At the outset,--I ask unanimous consent that the Chair be 
authorized to declare a recess at any time to address technical 
difficulties that may arise with such remote proceedings.
    Without objection, so ordered.
    As a reminder, we are holding this hearing virtually in 
compliance with the regulations for committee proceedings 
pursuant to House Resolution 965. First, consistent with 
regulations, the Chair or staff designated by the Chair may 
mute participants' microphones when they are not under 
recognition for the purposes of eliminating inadvertent 
background noise.
    Members are responsible for unmuting themselves when they 
seek recognition or when they are recognized for their five 
minutes. We are not permitted to unmute Members unless they 
explicitly request assistance. If I notice if you have not 
unmuted yourself, I will ask if you would like the staff to 
unmute you. If you indicate approval by nodding, staff will 
unmute your microphone. They will not unmute you under any 
other conditions.
    Second, Members must have their cameras on throughout this 
proceeding and must be visible on screen in order to be 
recognized. As a reminder, Members may not participate in more 
than one committee proceeding simultaneously.
    Finally, to maintain safety in light of the Attending 
Physician's new guidance, any Members present in the hearing 
room--must wear a mask at all times when they are not speaking. 
Those Members not wanting to wear a mask, the House rules 
provide a way to participate remotely from your office without 
being physically present in the hearing room.
    Now I will introduce our witnesses.
    This afternoon, we will be hearing from Ms. Teresa Gerton, 
president and CEO of the National Academy of Public 
Administration; Ms. Jennifer Pahlka, founder of Code for 
America and co-founder of U.S. Digital Response; Ms. Rebecca 
Dixon, executive director of the National Employment Law 
Project; and Dr. Robert Wah, a physician leader in healthcare 
and technology.
    I will now yield myself five minutes for an opening 
statement.
    It is appropriate that today, on our postponed tax day, we 
are discussing how our nation's outdated information technology 
systems have failed to meet the needs of the American people. 
Rash funding cuts over the past decade have prevented the IRS 
from modernizing its IT systems, deteriorating the agency's 
ability not only to carry out its core function of tax 
collection and enforcement, but also needlessly prolonging the 
delivery of stimulus payments to workers and families during 
the coronavirus pandemic and recession.
    The pandemic has proved that the quicker the response, the 
better the outcome, and that the steps taken by Congress to 
help American workers and families are only as effective as the 
agencies delivering that relief. Unfortunately, the IRS is not 
alone in its inability to meet the needs of the American people 
in these perilous times.
    Instead of helping to generate much needed solutions, 
outdated IT systems are worsening an already difficult 
situation as Americans grapple with unreliable or insufficient 
internet access, useless automated systems, and overwhelmed and 
underprepared agencies. Emergency assistance programs across 
the board have been hampered by our antiquated IT systems, 
leaving families with delayed relief or no relief at all.
    The most glaring example is unemployment assistance. We are 
four months into the worst economic downturn since the Great 
Depression, and there are still tens of thousands of workers 
who have filed for jobless claims but have not yet received a 
single payment. Many are going into debt or default, skipping 
meals, or losing their homes.
    State unemployment offices, already underfunded and 
understaffed, were left completely unprepared for the massive 
influx of need, and the big reason for that is the fact that 
the national--administrative funding essentially is the same as 
it was in 2001, and that is before accounting for inflation.
    This lack of federal investment, combined with old 
hardware, crashing web services, and the need for new hires 
proficient in COBOL, their systems' 60-year-old coding 
language, have left states scrambling. The antiquated IT 
systems failed and continue to fail repeatedly. American 
workers, those who lost their jobs through no fault of their 
own, are paying the price.
    This aspect of our ongoing crisis is not new. The federal 
government has long sought to prioritize modern, secure, and 
shared IT solutions, but funding uncertainties stemming from 
constrained discretionary funding under budget caps, shutdown 
threats, and continuing resolutions have made agencies more 
likely to update instead of modernize. And I might add, after 
reading today's testimony, that it may be--another factor may 
be a flawed philosophy of how to handle the whole data 
management system.
    GAO reports that while the total share of federal IT 
spending is increasing, it isn't because we are investing in 
better and new technology; it is because the price of updating 
our existing systems is snowballing as our ancient software 
becomes increasingly outdated and hardware parts nearly 
impossible to find. We are passing these acute problems on to 
state and local partners that distribute unemployment 
insurance, nutrition assistance, and other support to workers 
and families on behalf of the federal government.
    Federal and state governments are in dire need of solutions 
and investments now. We cannot foster a successful recovery 
while relying on IT systems from the 1950's. We cannot meet the 
demands of today when we are depending on software that is 
older than some Members of this Committee.
    To date, Congress has passed legislation that includes $1 
billion in grants to state unemployment offices to help process 
claims faster, and more is needed.
    By refusing to bring the Heroes Act to the floor, Leader 
McConnell is holding up an additional $1 billion for the 
Federal Technology Modernization Fund and a combined $5.5 
billion to help schools, libraries, and impacted families 
access high-speed connectivity and devices to facilitate 
distance learning, something we must prioritize in order to 
protect our children and educators.
    Earlier this month, House Democrats passed the Moving 
Forward Act, a comprehensive infrastructure package that 
includes $100 billion in broadband funding to extend high-speed 
internet to underserved and hard to reach communities.
    We have to invest in modernization now so that the federal 
government can help provide workers, families, and state and 
local governments with the necessary tools and resources to 
support our nation's recovery act efforts. I look forward to 
discussing this urgent need with our witnesses.
    I now yield five minutes to the Ranking Vice Chair, Mr. 
Johnson of Ohio.
    [The prepared statement of Chairman Yarmuth follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Mr. Johnson. Well, thank you, Mr. Chairman, and thank you 
for holding this important hearing. And a special thanks to our 
witnesses for joining us today.
    You know, as an information technology professional with 
over 30 years in the industry, I understand just how important 
IT is in today's digitally connected world, and there is no 
doubt that the coronavirus pandemic has demonstrated the need 
for workers, businesses, and students all across America to 
have reliable access to the internet. And these networks must 
be secure. Instances of Zoom bombing cannot become commonplace 
in our children's online classrooms, nor can businesses operate 
on hacked systems.
    In areas such as eastern and southeastern Ohio, other rural 
parts of the country, the coronavirus has emphasized the need 
for broadband internet access, period. Our students in rural 
Appalachia are not, for example, able to take advantage of e-
learning because they simply don't have access to the internet.
    I have even heard horror stories from local teachers having 
to teach their classes remotely from their cars parked in a 
McDonald's parking lot because they don't have access to 
internet at home. While I applaud their dedication to their 
students, I am simultaneously frustrated by the lack of 
progress we have made on solving the digital divide.
    It is also imperative that federal information technology 
systems are safe, secure, and reliable. Federal workers, many 
of whom have been working remotely the last several months, 
often handle sensitive or classified data. It is vitally 
important that we have procedures in place to ensure that only 
authorized personnel have access to such data so that we can 
prevent exposure of personally identifiable data and avoid 
greater national security risks.
    And we have seen how the coronavirus has heightened our 
awareness of just how fragile our supply chains are, including 
our reliance on other countries for critical items, including 
the dangers of companies controlled by our adversaries that are 
equipping our networks. We must ensure that companies like 
Huawei and ZTE no longer have access to our networks.
    While these concerns call for federal assistance for 
efforts such as rip-and-replace programs, the federal 
government should also leverage American ingenuity. I have 
often said technology industries have, in part, been so 
successful because the federal government can never find a way 
to regulate them.
    Public-private partnerships and investments in tech 
startups here at home can be more cost effective and, in the 
long run, more advantageous in terms of providing methodologies 
for advancing needed IT solutions. America has always been and 
must continue to be the frontrunner in technological 
innovation.
    Information technology crosses every sector of our economy, 
and investments in IT can drastically improve our way of life 
by creating efficiency, providing access to an ever increasing 
digital global economy, lifesaving medical treatments, motor 
vehicle safety, advanced weapons systems to provide our 
national security, and countless other solutions to problems 
that we haven't even begun to realize yet.
    However, we must ensure that federal funds are used 
efficiently and transparently, particularly when it comes to 
IT. We have seen far too many instances of the federal 
government throwing money at a problem instead of investing in 
carefully detailed and proven solutions. One example of this 
occurred at the VA back in 2012. Then VA Secretary Shinseki's 
main objective was creating an electronic health record, yet 
his top IT adviser could not show me a graphic of the 
Department's IT architecture.
    If a federal agency can't show Congress exactly where the 
IT funding would be going, how the systems connect, how the IT 
investments would enable the agency to further its main 
missions, then we shouldn't be supporting and increasing in an 
IT's--in an agency's IT budget.
    There is no question that federal funding for IT 
modernization is important, but many challenges of IT 
modernization efforts have included missed deadlines, cost 
overruns, and the abandonment of failed programs, not to 
mention a lack of transparency.
    Federal IT programs are important, but Congress must focus 
on reining in auto-pilot spending, while prioritizing limited 
discretionary resources on federal IT investments that demand 
agency accountability, efficiency, and ultimately successful 
execution.
    I look forward to hearing from our witnesses on this 
important topic.
    Mr. Chairman, thanks again for this hearing, and I yield 
back.
    Mr. Chairman, you are muted.
    [The prepared statement of Bill Johnson follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you. See, they mute me too, 
automatically.
    Anyway, thank you, Mr. Johnson, for your opening statement.
    In the interest of time, if any other Members have opening 
statements, you may submit those statements electronically to 
the clerk for the record.
    Once again, I want to thank our witnesses for being here 
this afternoon. The Committee has received your written 
testimony, and they will be made part of the formal hearing 
record. Each of you will have five minutes to give your oral 
remarks. As a reminder, please unmute your microphone before 
speaking.
    Ms. Gerton, you will be recognized first for five minutes. 
Please unmute your microphone. You may begin when you are 
ready.

   STATEMENTS OF TERESA GERTON, PRESIDENT AND CEO, NATIONAL 
  ACADEMY OF PUBLIC ADMINISTRATION; JENNIFER PAHLKA, FOUNDER, 
   CODE FOR AMERICA, AND CO-FOUNDER, U.S. DIGITAL RESPONSE; 
  REBECCA DIXON, EXECUTIVE DIRECTOR, NATIONAL EMPLOYMENT LAW 
PROJECT; AND ROBERT WAH, MD, PHYSICIAN LEADER IN HEALTHCARE AND 
                           TECHNOLOGY

                   STATEMENT OF TERESA GERTON

    Ms. Gerton. Thank you, Chairman Yarmuth, Ranking Member--
Vice Chair Johnson, and Members of the Committee. I appreciate 
the opportunity to testify today.
    I am a fellow of the National Academy of Public 
Administration and have served as its president and chief 
executive officer since January 2017. Established in 1967 and 
chartered by Congress in 1984, the Academy is an independent, 
nonprofit, and nonpartisan organization with a proven record of 
improving the quality, performance, and accountability of 
government at all levels.
    As the title of this hearing plainly states, the 
coronavirus pandemic has laid bare the challenging state of 
government IT systems at every level, but this is not a new 
problem.
    In 2016, the Government Accountability Office identified 
the 10 oldest IT systems in the federal government. At that 
time, they included the IRS Individual Master File that 
receives taxpayer data and dispenses refund, the Department of 
Veteran Affairs Benefit Delivery Network that tracks benefit 
claims filed by veterans, and the Transportation Department's 
Hazardous Material Information System.
    IT modernization has been on GAO's High Risk List for 
decades, and critical IT-related topics on the most recent list 
include the 2020 Census, DoD's business systems modernization, 
and the nation's cybersecurity.
    This situation, though, does not surprise those in 
government who have been keeping these outdated systems 
operational through both extraordinary ingenuity and the 
electronic equivalent of baling wire and duct tape. But it does 
beg another question: If government officials know how close 
these critical systems are to failure, why haven't they fixed 
them before now?
    As our government IT systems rely on programming language 
and hardware developed in the mid-20th century, our federal 
budgeting and acquisition systems are equally archaic. In the 
simplest example, it is far easier to get budget authority to 
maintain those old COBOL systems than it is to procure an agile 
software development and sustainment contract that would 
deliver modern functionality, improve cybersecurity, and better 
citizen service.
    Regarding acquisition practices, the federal acquisition 
regulation unrealistically categorizes all purchases as either 
supplies or services. This distinction, established decades 
ago, is too rigid to effectively procure modern technology 
solutions with evolving delivery models. It often leads to 
contracts that are neither optimized, nor appropriate for the 
solution being acquired.
    Ironically, government bears an extra cost burden for such 
strategies because they must allocate expensive resources to 
maintain obsolete and inefficient solutions, which by any 
reasonable standard should have been rationalized and replaced 
long ago.
    Institutionally, we approach IT as an overhead cost, always 
seeking to minimize it instead of seeing it as a fundamental 
tool in the 21st century that would deliver increased 
accountability, better outcomes, and improved citizen 
satisfaction.
    In a recent attempt to address this situation, Congress 
authorized the Technology Modernization Fund in the Modernizing 
Government Technology Act of 2017. The TMF received $100 
million in 2018 to fund modernization projects, $25 million in 
2019, and an additional $25 million in Fiscal Year 2020, and 
yet Members of Congress remainskeptical of a revolving fund 
approach to IT investment.
    The Academy recognized these challenges when we released 
last November our list of 12 grand challenges in public 
administration. Our list of grand challenges includes ensure 
data security and privacy rights of individuals and make 
government AI ready. We also established the Agile Government 
Center to assist government agencies with applying to their 
business practices the agile development processes that have 
made software development so rapid and responsive. We are 
currently developing proposed agendas in these and all 12 of 
the grand challenges, the drive change beginning in January 
2021.
    In our ongoing mission to promote best practices, the 
Academy has partnered with sponsors to cohost a monthly forum 
on shared services and quarterly forums on grants management 
and working capital fund management. Taken together, these 
three venues are helping managers across the federal government 
modernize their business practices and IT investment strategies 
to improve operations and reduce costs. They are making the 
improvements they can within the rules they currently operate 
under. But to really change the future, we must change the 
rules.
    Today, the government has challenges with cloud 
procurement, but the market is constantly evolving. More things 
will be sold as a service in the future. And with enablers like 
quantum computing and machine learning, technology innovation 
will inevitably continue at an increased rate. We must be ready 
to effectively acquire the resultant solutions or risk failures 
in our support to our citizens and potentially catastrophic 
failures in our ability to govern.
    The National Academy of Public Administration stands ready 
to assist in all of these efforts.
    Mr. Chairman, that concludes my statement, and I would be 
pleased to answer any questions you or the Committee Members 
may have.
    [The prepared statement of Teresa Gerton follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Ms. Gerton, for your 
testimony.
    I now recognize Ms. Pahlka for five minutes. Please unmute 
your mic and proceed.

                  STATEMENT OF JENNIFER PAHLKA

    Ms. Pahlka. Thank you.
    Chair Yarmuth, Ranking Member Womack, and Members of the 
Committee, I very much appreciate your inviting me here today 
to add my voice to this critical topic.
    A common proverb tells us that the best time to plant a 
tree was 20 years ago, and the second best time is now. Now 
that COVID has thrown millions of Americans' lives into chaos 
and created unprecedented need for support, it is clear that 
the best time to modernize government services was 20 years 
ago.
    We have largely failed to update our policies, processes, 
and technology to enable scalable, agile, human-centered 
services, and now we find that while Congress has the will to 
support the American people through this crisis, in too many 
areas the machinery of government just can't deliver.
    Up to 15 million people have not received their stimulus 
checks. People who may have been exposed to the virus are not 
alerted quickly because too many counties still share data by 
fax machine. It is clear that the next best time to modernize 
our government is now.
    We must invest in modernizing the technology that runs our 
services, but I am deeply concerned that the urgency of the 
moment will cause us to forget that we must also change how we 
make these investments. Now, more than ever we cannot afford to 
pour time, attention, and enormous sums of money into a process 
for building and buying software that hasn't worked for 
decades.
    Let's take unemployment benefits. The state systems that 
deliver this service rely on a hodgepodge of legacy systems, 
and as has been already called out in this hearing, at their 
core, many of them still use mainframe systems running a 
programming language designed in 1959. We are asking this 
technology to be agile, handling now the demands of three 
programs with dependencies between each instead of one; we are 
asking it to scale, in some places to nine to 20 times the 
previous volume; and we are asking it to work for people, for 
the questions and processes to be clear so that applicants know 
how to answer them accurately without assistance, for the 
people who administer the program to be empowered to make 
decisions that get the benefit to those in need as fast as 
possible.
    Neither the technology nor the policies were designed to be 
agile, scalable, or get to yes, and we have known this for 
decades.
    Ten years ago, the National Association of State Workforce 
Agencies stated that most state IT systems cannot efficiently 
handle today's demands. Many states joined consortia to 
contract for new systems together. Some of these systems have 
been implemented in the states for which they were procured. 
Others are somewhere along in the 10-, 12-, even 15-year 
procurement and development cycles. Collectively, they have 
spent billions of taxpayer dollars, and, yet even the states 
that had supposedly modernized are struggling to respond to 
this crisis.
    Modernization has largely failed in these cases and will 
continue to fail as long as these projects and others that 
support other very needed benefits follow the basic recipe of 
large, slow government procurement and development done in the 
conventional model. By definition, you cannot modernize if the 
project takes over a decade. By definition--excuse me,-and you 
cannot modernize by simply moving legacy policies and practices 
that have accumulated over decades to slightly less outdated 
technology platforms.
    True modernization breaks down the silos between policy, 
technology, and other disciplines so that the service itself 
can be codesigned to work for its users and the people who 
administer in it. True modernization means that services 
provide real-time data about their usage, and that program 
administrators analyze that data to understand what is working, 
what is not working, and what can be done about it so that it 
can get constantly better.
    These agile, human-centered models for developing 
government software systems work. When public servants are 
allowed to use them, these models reduce risk, and the projects 
that use them cost less and deliver results faster. These 
models are currently in use at all levels of government, at 
places like the United States Digital Service, GSA's 18F, 
Kessel Run at the Air Force, Defense Digital Service, the 
Centers for Medicare and Medicaid Services. Several states also 
have stood up their own digital service teams.
    But the vast majority of government technology projects 
still do things the old way. Why? A common belief, or perhaps 
an excuse, is that Congress dictates the old model and will 
punish any deviation from how it has always been done. To fix 
this, Congress will need to be more than a checkbook. This body 
will have to become a staunch and visible ally of hybrid tech 
policy teams who practice agile development and user-centered 
design wherever they exist.
    To use a metaphor beloved by my former boss, Todd Park, we 
need to stop arming the empire and start arming the rebels. 
Stop pouring millions of dollars into projects everyone knows 
will fail. Fund the USDS and the state digital services who can 
help others across government successfully implement these 
practices. This is not just the next best time to truly 
modernize government services; it is our last chance.
    Thank you.
    [The prepared statement of Jennifer Pahlka follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Ms. Pahlka, for your 
testimony.
    I now recognize Ms. Dixon for five minutes. Please unmute 
your mic and proceed.
    Looks like you haven't, Ms. Dixon.

                   STATEMENT OF REBECCA DIXON

    Ms. Dixon. Thank you, Chairman Yarmuth and Ranking Member 
Womack and Members of the Committee, for the opportunity to 
testify today. I am Rebecca Dixon, executive director of the 
National Employment Law Project, NELP.
    The challenges facing workers seeking access to 
unemployment insurance payments is an issue that NELP has been 
working on for many years. I appreciate the Committee's work to 
ensure robust UI access for millions of workers and job 
seekers, especially underpaid Black, indigenous, Latinx people, 
and workers of color.
    The current employment surge poses--unemployment surge 
poses an unprecedented challenge. Although new claims peaked at 
6.6 million this week, this spring, states are still processing 
upwards of two million claims a week, which is twice the 
highest week in history. Workers are understandably frustrated.
    During the course of this pandemic, it has been impossible 
to ignore the human suffering from workers unsuccessfully 
attempting to access UI. Entire online systems crashed in 
several states. Workers trying to contact the agency with 
questions about online applications have been unable to get 
through. Some report calling dozens of times a day. Claimants 
were confused about how to check the status of their claim and 
were left in limbo for weeks.
    States had difficulty reprogramming their systems to 
provide expanded benefits. In some states, that took up to a 
month and a half to establish the online application process 
for the new pandemic unemployment assistance.
    For underpaid workers, two months' delay can be the 
difference between surviving and losing everything. For 
example, Rheana from California was furloughed from a small 
event production company, that the industry won't return for a 
long time. She has already had to move to a cheaper apartment, 
gone through her entire life savings waiting for unemployment, 
and now is worried that she is going to lose her health 
insurance, home, car, and even ability to eat.
    Meanwhile, the program has been especially important for 
workers of color. According to the CBO, 47 percent of workers 
receiving UI in July are workers of color. This includes 16 
percent of Black workers, 14 percent of Latinx workers, 10 
percent of White workers, and 14 percent of workers of other 
backgrounds.
    Seven years ago, I wrote a report called Federal Neglect 
Leaves State Unemployment Insurance Systems in Disrepair, and, 
unfortunately, much of what I wrote remains true today.
    Only 16 states have fully modernized their systems with the 
rest operating on, as others have mentioned, a COBOL mainframe. 
In addition, when states do not move to update these--do move 
to update these outdated systems, we have seen significant 
delays and service disruptions, breakdowns, backlogs, and 
delays.
    It is also important to recognize that modernization is not 
a panacea and does not always mean progress. After all, Florida 
has, quote, ``modernized their system,'' but it was built on a 
foundation of public policy choices that were designed to limit 
access to UI.
    Few people realize that Florida's catastrophically failed 
system was modernized with a consortium with Massachusetts and 
New Mexico. When the other states in the consortium ran into 
problems with user access, they went back to work with their 
vendor to improve their systems, and as a result, did not have 
the same results as Florida.
    Michigan's IT system was also designed to fail. Its MiDAS 
system flagged more than 40,000 workers for fraud, and its 
accuracy was--it was 93 percent inaccurate. This is a really 
big penalty. In Michigan, four times the amount paid, plus 12 
percent interest, and as a result, some claimants lost 
everything.
    The new administration in Michigan has committed to 
improving these systems and now has shifted course and become 
one of the fastest states in terms of payment processing. We 
know that faster payment processing is possible for all states.
    Congress must ensure that UI IT systems are functional and 
accessible. Specifically, NELP recommends funding 
modernization, requiring input from workers and advocates from 
beginning to end, and comprehensive user testing to ensure 
participation from Black people who face the most barriers and 
all communities of color.
    We also want to include those who are on the other side of 
the digital divide, people with limited English proficiency, 
people with disabilities. DOL should also create a unit devoted 
to IT that can give states hands-on assistance in 
modernization, review contractor agreements, audit contractors 
where necessary, and require states to document contractor 
performance.
    Creating a federal task force to evaluate program 
performance and recommend reforms, including compliance with 
civil rights laws. This task force would function to determine 
whether some parts of this system need to be federalized, would 
also have the authority to negotiate favorable terms with 
vendors, and take advantage of the government's ability to 
leverage cost savings and produce high-quality systems.
    More broadly centered, customer-centered design and user 
experience testing is also a recommendation. There are widely 
accepted practices in the private sector that can be 
implemented here. Unemployed workers need 24/7 online access, 
mobile services, and they need their password reset protocols 
improved.
    In closing, the crisis has highlighted gaping holes in 
accessing unemployment, but it has also created an opportunity. 
We can build a 21st century system that is nimble enough to 
handle disasters and designed to meet the needs of customers 
who are depending on access to UI.
    Thank you.
    [The prepared statement of Rebecca Dixon follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Ms. Dixon, for your statement.
    And I now recognize Dr. Wah for five minutes. Please unmute 
and proceed when you are ready.

                  STATEMENT OF ROBERT WAH, MD

    Dr. Wah. Chairman Yarmuth, Vice Ranking Member Johnson, and 
Committee Members, thank you for inviting me to testify today.
    My name is Robert Wah. I am a physician with over 23 years 
of Active Duty Naval service and have worked in health IT for 
over 25 years. I was the associate chief information officer 
for Military Health at DoD, and then the first deputy national 
coordinator at HHS, setting up the Office of the National 
Coordinator for Health IT that we now call ONC. I also worked 
in the private sector IT.
    Health IT has advanced in three major waves. First, we 
moved from paper records to digital information. Next, the 
digital information was networked together. The third wave uses 
this virtual pool of networked digital information for 
analytics, machine learning, research, and population health.
    Picture everyone in healthcare--patients, doctors and 
providers, hospitals, pharmacies, payers, government, and 
researchers--all around this virtual pool of interoperable 
health information, putting in and taking data out.
    The ONC has nearly completed Wave 1, and they are advancing 
Wave 2 and 3. This work must be continued, supported, and 
funded.
    As has been noted, COVID-19 has exposed many needs and 
opportunities for federal health IT funding beyond the 
continued work on Waves 2 and 3. COVID-19 has highlighted the 
value of virtual remote healthcare as effective, efficient, and 
well accepted. Investment is needed to connect telemedicine 
with this virtual pool of interoperable health information, 
just like in-person care.
    Health information exchanges formed in Wave 2 need to 
support public health and research. Traditional public health 
asks that certain diseases be reported when they are found, 
like tuberculosis or sexually transmitted diseases.
    The virtual pool of information will allow public health 
officials to see patterns of new diseases and epidemics before 
they are even named or reports are formulated. Clusters of 
patients with fever, cough, and sudden loss of taste and smell 
could be identified before we even knew to call it COVID. 
Funding to connect public health agencies to this Wave 2 
virtual pool is critical.
    In parallel, investment is needed to connect research 
innovation to the pool to expand clinical trials and use real-
world evidence about new COVID treatments and vaccines. The 
pool has information about millions of people, not just the few 
hundred or thousand in clinical trials.
    Sam, if you could show my graphic, I would appreciate it.
    [Graph.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    COVID-19 tests normally just have the patient's name and 
the result. Here is an example of the virtual pool across six 
states combining information on 1.5 million COVID patients 
tested, where they displayed the results, but also the 
distribution of patients by age, gender, race, and ethnicity. 
This is all because there is enrichment due to the virtual pool 
of information that has added the patient's name and result.
    Sam, you can take that picture down now.
    For patients with chronic diseases like diabetes, high 
blood pressure, heart and lung disease, COVID has made them 
sicker and die more frequently. Patients with chronic diseases 
also use the largest part of our healthcare expenditures.
    We can connect with these patients in places they visit 
frequently. There are self-service smart health stations with 
free blood pressure, weight, BMI, and health assessments in 
pharmacies, grocery stores, and for hard-to-reach population, 
food banks and unemployment offices. Funding investment can 
connect them to the virtual information pool so public health 
tools can be employed.
    One network has 10,000 stations nationwide and has taken 
over 350 million measurements in the last eight years. These 
could identify hotspots of prediabetes, high blood pressure, 
obesity, and cardiovascular disease, targeted for prevention 
and precautions during pandemic exposure and connect the 
patients to virtual and in-person care.
    COVID-19 has also highlighted the need to increase funding 
for supply chain technology and management in conjunction with 
our Strategic National Stockpile. As we send doctors and 
healthcare workers into battle every day, we must arm them with 
medications, equipment, eventual vaccines, and personal 
protection equipment, PPE, to effectively fight the war against 
the pandemic.
    I hope we will have time later to talk about using clinical 
data outside healthcare, like back to work and travel, as well 
as cybersecurity.
    These are complex issues. Health is vital and personal to 
all of our citizens, and costs make up a large part of the GDP. 
Government must use all available levers--policy, regulations, 
legislation, as well as financial--to improve the health of the 
nation. Investment in health IT has a high impact on the health 
of our citizens and a higher return on investment. We must 
continue investments in Wave 2 and 3 in coordination with the 
ONC. Funding for the issues above will improve the health of 
our citizens during this fight against the COVID-19 pandemic 
and future health threats.
    Thank you for the opportunity to be here today. I look 
forward to your questions. Thank you very much.
    [The prepared statement of Robert Wah follows:]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
    
    Chairman Yarmuth. Thank you, Dr. Wah, for your testimony.
    And, once again, thanks to all the witnesses for their 
testimony.
    We will now begin our question and answer session. As a 
reminder, Members may submit additional questions to be 
answered later in writing. Those questions and answers to the 
witnesses will be made part of the formal hearing record. Any 
Members who wish to submit questions for the record may do so 
by sending them to the clerk electronically within seven days.
    As I usually do, I will defer my questions until the end, 
so I now recognize the Vice Chairman of the Committee, the 
gentleman from Massachusetts, Mr. Moulton, for five minutes.
    Mr. Moulton. Good afternoon. Thank you, Mr. Chairman. And I 
want to thank all the witnesses for making the time to testify.
    And I would like to offer a special thanks to Ms. Pahlka. 
My team worked closely with Code for America's Boston Brigade 
to develop an app to educate current and retired public 
servants about the Social Security windfall elimination 
provision and allow them to accurately calculate their likely 
web production. This app is now hosted by Mass Retirees, an 
organization of retired public employees in The Bay State, and 
I am extremely grateful for your leadership and vision that 
helped make this project possible.
    Sir Winston Churchill is credited with first saying, 
``Never let a good crisis go to waste.'' He said that in the 
mid-1940's as we were approaching the end of World War II. We 
must take the opportunity to learn from our crisis today to 
prepare better for the future and to create a more capable 
government and a stronger, better country for our children and 
grandchildren.
    Per a recent GAO report, the federal government invested 
over $90 billion in IT in Fiscal Year 2019, but 80 percent of 
this, a staggering $72 billion, went toward operating and 
maintaining existing aging IT investments.
    I mean, can you imagine if you spent 80 percent of your 
household budget in the next five years not on buying new 
devices--upgrading your TV or phone or buying a new computer 
when yours becomes obsolete--but simply maintaining the devices 
that you have? Think about that; investing almost the entirety 
of your family IT budget in repairing your 1950's TV set to 
keep it working every year, which only becomes more expensive 
over time as the technology becomes more obsolete, rather than 
ever buying a flat screen.
    Now, speaking of 80 percent, I agree with 80 percent or 
more of the Vice Ranking Member's opening statement. We need to 
modernize our IT, we need to ensure that our systems are 
secure, and we need to win the competition with China that, 
frankly, we are starting to lose.
    But I also want to point out two important places where I 
disagree. Mr. Johnson spoke about investing in proven 
solutions, and I completely agree with him when it comes to the 
willingness of government to take commercially available off-
the-shelf solutions and put them to work for all of us.
    In fact, my very first piece of legislation I passed as a 
Member of Congress was a bill to get the VA to use commercially 
available scheduling apps to enable veterans to schedule their 
own appointments electronically when the VA wanted to instead 
spend tens of millions and much more time developing a 
proprietary solution on their own.
    But speaking more broadly about government investment in 
tech, if we only invest in proven solutions, we are guaranteed 
to lose the race to China, because China is investing their 
federal dollars in next-generation technology, from biotech to 
quantum computing and pushing the frontier forward, not in 
buying tech that exists, but in developing technology that does 
not.
    In fact, the Republican witness at our previous hearing 
specifically pointed out that federal investment should be 
focused on technology that is unproven, specifically because 
taking these investment risks is necessary for progress, but 
often unbearable by the private sector.
    The other point is no regulation of tech. I hate excessive 
regulation as much as any American. The complete and total lack 
of any regulation in tech is why we have foreign influence in 
our elections, unbridled monopolistic power in big tech, and we 
rely not on elected representatives of the people to establish 
laws for weighty issues like which Facebook or Twitter post to 
delete, but, rather, rely on 20-something kids in black boxes 
to make those decisions on their own, with no accountability 
whatsoever to elected officials or the American people. There 
is a place for regulation in tech, and there is much more that 
we need to do.
    My last engagement before this hearing was a visit to North 
Shore Medical Center, our local hospital, to thank the heroes 
on the front lines who have been fighting this pandemic, and 
doing so quite successfully here in Massachusetts, I might add, 
where we take our science seriously and our case numbers 
continue to go down. Of course, we are preparing for that to 
change given what is happening in the rest of the country.
    There, I heard from doctors and nurses who want to make 
sure we heed Churchill's advice and ensure that we don't just 
keep doing the things the same way after this crisis.
    One great example was how the psychiatry department has had 
greater success with telehealth appointments than in-person 
visits, enabling people to keep appointments despite other 
medical conditions or family conflicts.
    Of course, modernization should happen in Congress as well. 
One of my team members, Ananda Bhatia, founded the 
Modernization Staff Association, a bipartisan group that 
focuses on internal reform issues that primarily affect junior 
Hill staffers. We have a lot of work to do in that department 
as well, looking ourselves in the mirror.
    With that, Mr. Chairman, I yield back.
    Chairman Yarmuth. Your time has expired.
    I now recognize the gentleman from Ohio, Mr. Johnson, for 
five minutes.
    Mr. Johnson is not responding.
    Can you unmute, Mr. Johnson? Are you there?
    Well, in that case, I will yield five minutes to the 
gentleman from Texas, Mr. Crenshaw. We will come back to Mr. 
Johnson.
    Mr. Crenshaw on? Mr. Crenshaw? No.
    How about Mr. Burchett?
    Oh, Mr. Flores? How about Mr. Flores from Texas? I know he 
is here. I yield five minutes to Mr. Flores from Texas.
    Mr. Flores. And so I am here, and thank you, Mr. Chairman. 
Anyway, I appreciate the witnesses for joining us today.
    Dr. Wah, I have a few questions for you. Let me give you 
the preamble to the first set. In 2011, the VA and DoD began an 
electronic health record modernization initiative to replace 
two separate electronic health record systems that were used by 
the two departments to combine them into a single shared 
system. And in 2013, after spending more than a billion dollars 
on the program, the secretaries of VA and DoD announced that 
they would not continue their joint development of a single 
EHR. Instead, the VA would buy and convert to the DoD her 
system.
    I remember being on the VA Committee at the time and was 
pretty frustrated about that, because Congress had ordered the 
DoD and the VA over a decade earlier to combine their systems.
    So the first question is: What were the problems that were 
encountered that led to the abandonment of this project? Dr. 
Wah?
    Dr. Wah. Yes. I had to unmute real quick.
    Mr. Flores. OK.
    Dr. Wah. Thank you, Congressman. First and foremost, I 
would say that I left the DoD in 2006, so these events that you 
are describing happened after my departure, so I certainly 
don't have firsthand knowledge or inside view on circumstances 
that you discussed.
    It is a complex problem in dealing with two health systems 
that take care of nearly 20 million patients around the world. 
From my point of view, part of it is I think that the important 
thing to remember is that there are different requirements for 
the two organizations. The VA, while they are both healthcare 
systems taking care of patients, the location and the manner in 
which they take care of those patients are vastly different.
    So I basically came from the Department of Defense, where 
we have brick-and-mortar hospitals in the continental U.S., but 
also hospitals in Landstuhl, Germany; Japan; and things like 
that. But on top of that, we have a readiness and a battlefield 
commitment to caring for our beneficiaries as well, and so we 
have got to have a system that can meet those requirements that 
are very unique in the battlefield, in the deployed 
environment; that the VA is more about brick-and-mortar systems 
that we are accustomed to here in the continental U.S.
    So I just point that out that, you know, the requirements 
are quite different between the two organizations, and so 
finding a solution that meets all of those requirements is an 
extensive challenge.
    The other thing I would say is that the DoD and the VA also 
had really pursued slightly different strategies about 
government-built software versus commercially off-the-shelf 
software, and so, again, merging those two issues is another 
big challenge.
    And so, again, I wasn't there when these decisions were 
made, so I can't give you direct insight into your question, 
but these are some of the issues that I have seen that have 
come up in trying to deploy these vast systems for 
organizations that have different requirements.
    Mr. Flores. Thank you. I appreciate that. By the way, I 
wasn't totally trying to hold you culpable for those issues, 
so--let me--I have a couple of other questions for the record 
on that, which we will submit and ask you to submit in writing, 
but you brought up something. You did a lot of work in the past 
on modernizing the DoD IT system. Can you describe for us the 
lessons learned from your experience with the DoD IT system? 
What were your biggest successes, biggest challenges? And how 
can we take the lessons learned from both the successes and 
challenges and apply them to future IT implementation?
    Dr. Wah. Thank you for that. I think one of the things I 
would say that I found particularly useful that I have reused 
in all my other IT work is that it is very important to have, 
in particular in healthcare IT, clinical input at the outset, 
at the design and development of the system, as well as in the 
deployment of the system.
    And I am biased obviously because I am a physician, but I 
believe that having that clinical perspective early on makes 
sure that the technology works in the business process and 
workflow and environment in which it is going to be used.
    Left without that, the technical architects and programmers 
may build something that is technically correct but doesn't fit 
the workflow and business process of healthcare. So there is 
just something important to that that I think that adds to the 
mix.
    The second thing I would say, some of the biggest successes 
I always cite is that--one example I give is that in the last 
30 years, I haven't written a prescription on a piece of paper 
in a military facility. That is a remarkable data point, I 
think. We are all used to electronic prescribing today, but it 
hasn't been around for 30 years in very many environments. And 
what that did was not only the legibility issue about doctors' 
handwriting, but it also allowed us to build a real-time data 
set of 10 million beneficiaries' pharmacy history.
    So now, when I write a prescription at Bethesda Walter Reed 
and hit enter, it goes against this data base and immediately 
comes back to me and tells me that the prescription I just 
wrote is going to conflict with an allergy the patient has, a 
medication they are already on, or that duplicates one they 
have already picked up. And this real-time data base covers 
whether they picked up their medication at the Bethesda 
pharmacy, 66,000 civilian pharmacies, or got it through the 
mail order system. And we have prevented hundreds of thousands, 
millions of medication errors just because of that simple 
change, going from paper prescriptions to digital.
    So I think there are some major advantages that we can cite 
throughout the time of military health system. There are 
challenges, as you have already cited, and I won't go into all 
those, but, you know, it is very challenging for a large 
organization with that diverse set of responsibilities in 
patient care to not have problems----
    Mr. Flores. Well, thank you for your service. Thank you for 
being here today.
    I yield back.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from New York, Mr. Higgins, 
for five minutes.
    Mr. Higgins. Thank you, Mr. Chairman. I find it ironic that 
we are experiencing technical difficulty on a hearing regarding 
federal investment in technology.
    A lot of this, you know, has to do with the current 
pandemic, but I think all of us have experienced, in the past 
5-1/2 months, that COVID-19 has exposed the fragility of the 
American economy and American society. There is no treatment 
for this. There is no vaccine, despite the fact that the 
coronavirus has been with us for 20 years.
    Unemployment, you know, designed to give people $600 a week 
was an unmitigated disaster due to the old and broken 
technology unable to efficiently administer those checks to get 
people what they needed, money, and to get them what we needed 
them to do, and that is spend money, creating demand in the 
economy.
    The good doctor had mentioned the issue of telemedicine. It 
certainly was accelerated, the use of it, and a new 
appreciation for it during this pandemic. But it was limited 
because of the lack of infrastructure technology; very, very 
important.
    You know, the U.S.-China relationship is critical as it 
relates to technology and who is going to win this race. The 
U.S.-China trade relationship is no longer about T-shirts, 
toys, and sneakers. It is about technology.
    China, in the last two years, has invested a trillion 
dollars connecting China physically, but also through 
technology to Europe and the Middle East. The United states 
spent $350 billion, the last major infrastructure investment, 
15 years ago; 15 years ago. Not good enough.
    5G, fifth generation, the super fast cellular networks that 
are used as a foundation for both today and tomorrow's 
technologies, China is beating us. China has outpaced the 
United States in patent production, artificial intelligence, 
quantum computing, patents in semiconductors.
    So, Dr. Wah, I just wanted to ask you, sir: On the 
healthcare piece of this, if we had better technology in the 
United States, if we were more advanced in fifth generation, 
super fast cellular networks, would that speed up development 
of a vaccine and/or an effective treatment for COVID-19?
    Dr. Wah. I thank the Congressman for that question. I think 
what I am hearing you ask is, if we had--you mentioned things 
like 5G, which to me is infrastructure.
    Mr. Higgins. Right.
    Dr. Wah. And so I think infrastructure is always important 
in the digital world, because we need to move information 
faster. But, for me, healthcare IT is all about better 
information for better decisions, and it is the role of the 
technology to deliver that better information so everybody 
makes a better decision. The speed in which that information is 
delivered and the ability to scale is important. So to that 
degree, I think infrastructure would help.
    But there are many other components that are needed to be 
successful, particularly in developing a vaccine, and that is 
why I cite the virtual pool of information that we are talking 
about. The richer that pool is, the more people contributing to 
and taking out of that pool, I think is what is really going to 
accelerate our ability to make major breakthroughs, not just in 
COVID, but in other diseases. And, as I said before, imagine 
that we could use that pool to recognize patterns of disease 
that we don't even know what the disease is yet; we just know 
there is a cluster of problems somewhere, and then we can 
employ machine learning and augmented intelligence to sort that 
out.
    So I think, yes, I would support better infrastructure, but 
it is really what that infrastructure supports, which is this 
grander pool of information.
    Mr. Higgins. Final question, Doctor. Vaccine development 
traditionally is a process that takes about 10 to 15 years. The 
fastest vaccine that was developed was developed for Ebola, and 
that took five years and manufactured later by Merck. I am 
concerned that the hope for a vaccine in the first quarter of 
next year and the reality, I am concerned they cannot be 
reconciled. Do you have any thoughts on that?
    Dr. Wah. Yes. Vaccines are not my area of expertise. I am 
an OB/GYN and infertility specialist with microsurgery, so I 
just want to put that as a caveat. But, yes, I think we are all 
very optimistic about the ability of our scientists to develop 
a vaccine that is effective and safe in a very short period of 
time.
    The things that encourage us are there are new technologies 
that were not present previously in terms of understanding 
genetic structure and protein structure, and so that, I 
believe, will, in fact, accelerate our ability to develop an 
effective vaccine. And also----
    Mr. Higgins. Thank you, sir.
    Dr. Wah.----going back to what I said about real-world 
evidence, we have a way of monitoring that that we don't 
previously use. Clinical trials usually enroll patients. Now we 
can look at the real-world behavior of many millions of 
patients either using the treatment or a vaccine. So I am 
encouraged by that as well.
    Mr. Higgins. Thank you, sir. I yield back.
    Chairman Yarmuth. The gentleman's time has expired.
    I now recognize the gentleman from Tennessee, Mr. Burchett, 
for five minutes.
    Mr. Burchett. Can you hear me now? Good deal. I have got to 
get on another call real quick, but, quickly, I have got one 
question to just ask the entire committee--the group.
    What are the federal barriers to you all's progress? And 
are there any federal regulations that serve as barriers to the 
successful IT implementation?
    Ms. Gerton. Congressman, perhaps I can take a first cut at 
that. From the federal level, there are a number of procurement 
flexibilities that could potentially allow organizations to 
make intentional investments in IT modernization, including 
working capital funds, EMF, and revolving funds.
    But one of the critical issues, or maybe two of the 
critical issues are, while Congress has passed flexibilities in 
procurement, we remained constrained by a couple of key 
features. One is the CBO scoring rules, which require the full 
cost of an IT investment to be recognized in the first year and 
don't allow the consideration of offsets of future savings to 
be applied as a discount. So IT investment looks 
extraordinarily large and must be fully accommodated in the 
very first year for which it is planned.
    The second is the audit rules, the GAO audit rules, which 
mitigate against flexibility, I would say probably rightly so, 
but their strong perception that the old ways of buying either 
supplies or services are what remain acceptable even in the 
face of congressional flexibility and procurement authorities.
    So as Congress is thinking about alternative tools and 
flexibilities, I think one of the key features would be 
engaging with CBO and GAO to encourage their flexibility in 
terms of how they score and how they audit those procurement 
decisions.
    Mr. Burchett. Thank you.
    Ms. Pahlka, do you want to take a shot at that?
    Ms. Pahlka. I would love to. Thank you. I would agree with 
everything Ms. Gerton said. Would add, I think some of what 
needs to change, as I mentioned and as outlined in the written 
testimony, is practice overregulation. But practices don't 
change because people are worried about being called in front 
of Congress, and I think if this body can demonstrate that they 
will support those who take innovative approaches, that will 
change over time.
    As one example, most procurement officers, you know, will 
insist on putting something in a procurement that says only a 
company who has done a project of this size in the past--and 
there is a lot of restrictions around this and many caveats--
you know, can successfully bid on this. Well, that is very 
anticompetitive, and it really means that that project will 
only then be able to go to probably two companies.
    We know exactly how that project will end up, and that is 
one of the hallmarks of this sort of death march toward a mega 
project that will fail that we see. And I think--I don't know--
and maybe Ms. Gerton can help me understand--if that is a 
regulation that needs to be removed, but I think it is a 
decision that contractors make--contracting officers will make 
that, if they can be supported, to feel that that is not 
unnecessary--many contracting officers are happy not to include 
it, but that they won't be punished for not including a 
requirement like that that is, one, environmental--it is sort 
of the environment that can change.
    I think, particular to unemployment insurance, because it 
is the topic--you know, one of the major topics here and 
obviously such a crisis in our country right now, there is no 
safe harbor for departments of labor at the state level and 
workers there to be able to say, I have done my best to make an 
eligibility determination about this individual who is applying 
for this benefit, and I am now going to award that benefit 
without any fear of being told later that my decision was 
wrong.
    We need to meet much clearer guidance and probably much 
more specific and useful tools that every state can use where, 
much like E-Verify, which, you know, you can use to say, I have 
checked this person. They are eligible for employment, and now 
I have safe harbor to make this decision. We need sort of a set 
of tools that we can give every state--this would be a federal 
investment--that could say, I have run this person through this 
particular tool. I know that they are eligible, that we have 
checked their income, that they have not applied in another 
state, and there is no fraud happening here, and that will 
significantly increase the speed of determination and the 
delivery of unemployment benefits, and that is an important 
thing that I think we should consider at a federal level.
    Mr. Burchett. Thank you so much.
    Mr. Chairman, I yield none of my time to Jimmy Panetta and 
Dan Kildee. Thank you, sir.
    Chairman Yarmuth. I thank the gentleman.
    The gentleman's time has expired.
    I now recognize the gentlewoman from Illinois, Ms. 
Schakowsky, for five minutes.
    Ms. Schakowsky. Thank you, Mr. Chairman.
    Ms. Dixon, I want to see if you can help me with this.
    At the end of April, we saw that the Department of Labor 
reauthorized its IT modernization checklist in the face of the 
skyrocketing unemployment numbers, the service disruptions, 
massive processing backlog.
    The checklist is originally from 2017 for states to ensure 
that all necessary systems functions are available before the 
launch of new unemployment benefit programs. But it is my 
understanding that DOL does not keep track or monitor the 
progress of states' UI modernization initiatives and it does 
not have any enforcement mechanism that specifically targets 
current systems failures, and is that correct?
    Ms. Dixon. Yes, that is correct. We know that this 
checklist is there, but it is really just a list of tasks, and 
it doesn't really tell the states how to accomplish what they 
need to accomplish. You could actually write a manual about 
each business process that is on the checklist, so it is 
insufficient. And it is true that DOL----
    Ms. Schakowsky. So that was really my next question, then. 
You would say--my question was, is this checklist enough to 
ensure that states make sufficient progress, and your answer is 
clearly ``no'' to that.
    So what else does the Department of Labor and the 
administration have to do to ensure the unemployment system is 
up and running before new benefits are rolled out?
    Ms. Dixon. The DOL really needs to create a specialized 
unit for IT and phone inside the agency. So they need to have 
infrastructure in the agency to provide states with more 
guidance, to help states find economies of scale as they do 
these modernization projects.
    So it needs to take a much more active role and to create 
standards. There are actually very few standards around 
customer service for UI. There is not a standard that says, 
``All calls must be answered in 90 minutes,'' or anything. So 
we manage what we measure, so having more measurement is really 
important.
    Ms. Schakowsky. So the CARES Act provided a temporary 
expansion of unemployment compensation to help the millions of 
workers who are furloughed, laid off, without work due to no 
fault of their own because of the COVID-19 pandemic. This 
expansion is set to expire on July 31, coming right up. I have 
seen reports that it will take weeks to restart this program if 
it lapses, even in states with modernized technology.
    Will it be a technological problem if the $600 pandemic 
unemployment compensation runs out and is not extended before 
the deadline?
    Ms. Dixon. You are absolutely correct. What we are hearing 
is that it would take states two to three weeks to get back up 
and reprogram. So that would lead to a delay, an unnecessary 
delay, for folks who are depending on these benefits as a 
lifeline.
    Ms. Schakowsky. So is this really a technological problem 
that we are facing, or is it just a decision about extending 
the benefit?
    Ms. Dixon. I think that the two are intertwined. We 
definitely do need to make a decision and make a people-
centered decision about supporting workers who have lost their 
jobs in this pandemic. And it is not just technology but also 
the decisions that are behind the choices we make in 
technology.
    And so putting people first, developing customer-centered 
systems, instead of more efficient systems, is important.
    Ms. Schakowsky. Yes. Thank you.
    My time is almost up, and I will yield back at this point--
oh, did someone want to answer?
    OK. Thank you very much. I yield back.
    Chairman Yarmuth. The gentlewoman yields back.
    I now recognize Mr. Kildee from Michigan for five minutes.
    Mr. Kildee. Thank you, Mr. Chairman.
    And I will pick right up where Ms. Schakowsky left off, 
because I think this really is fundamentally a question that we 
are all facing right now.
    What we are seeing right now in the unemployment issue is 
both a policy question and a technology question. We have 
control of the policy choices, ``we'' meaning Congress. We 
could make the decision before these unemployment benefits 
lapse, and I hope we do.
    But there is a lot of, sort of, hang-wringing around the 
issue. There is a lot of discussion about whether the $600 
supplemental benefit was correct. It was done for its 
simplicity, in part. That added with state benefits was 
intended to equate somewhat roughly to replacement-rate wages 
for the broad spectrum of people who lost their jobs.
    But I would really be concerned, given the technological 
problems that we have seen just in implementing the $600 
uniform benefit, I would really be concerned with challenging 
states to somehow implement a replacement-wage system when we 
are talking about tens and tens of millions of people who are 
struggling with this problem.
    And I reject out of hand the idea that the $600 is what is 
keeping people from going back to work. What is, for the most 
part, keeping people from going back to work is either there is 
no work to go back to or they are afraid, naturally, to go back 
into the workplace when they are at risk of contracting this 
really dangerous and deadly disease.
    So I guess I would be interested in what you all see, maybe 
starting with you, Ms. Dixon, because you did rightfully point 
out that, in Michigan, while we made improvements, we made 
improvements from a horrible system that, at one point in time, 
under the previous administration, essentially charged 20,000 
people with unemployment fraud because they had a lousy system. 
And we have had to make up for that, and the current Governor 
has been attempting to do that.
    But can you talk about the challenges that the states would 
have to go through in order to calculate and come up with a 
replacement-rate basis for this federal supplement as opposed 
to using a more simple formula that we adopted in the CARES 
Act?
    And starting with Ms. Dixon, but then I would open it up to 
others to comment.
    Ms. Dixon. Absolutely.
    So each state has its own specific UI program and its own 
specific UI formula for how they calculate benefits. And so, 
that being the case, it is horribly complex for each state to 
then have to rework their benefit formula to reach that target 
replacement rate.
    So it is actually a lot of work to get that done, 
particularly, I think, in the case where the $600 is obviously 
bolstering the economy in a very, you know, tragic crisis 
situation.
    Mr. Kildee. Other members of the panel?
    Yes?
    Ms. Pahlka. I think you should be very concerned. I think 
any changes now are going to cause some chaos.
    We, through the United States Digital Response, have had 
volunteer teams working with six states on their unemployment 
delivery. And the public servants that they are partnered with 
are not incompetent. They are very dedicated. They are working 
as hard as they can, given the constraints that they are under. 
But the system itself is pushed to its limits. And I think you 
should take them at their word when they say that there will be 
a disruption.
    I think the one thing we have really learned in this 
technology transformation world over the past 10 years is that 
policy and technology have to go together, they do go together, 
and we need to make policy with the implementation in mind. 
Understanding how it will be implemented is the only way to get 
the results that your policy intends.
    Mr. Kildee. I think that is a really important point. In 
order to create public value, we have to have operational 
capacity. And I think sometimes we just assume, well, we just 
pass a law, and, you know, by magic, it all just sort of gets 
implemented. The case here is to get help to Americans.
    And I think, finally, I will say this. It is a technical 
question, but it is a technical question that we ought to 
consider when we adopt these policies. And if we don't believe 
that we have invested in the technology sufficient to allow a 
more detailed solution, then we ought to just keep it simple.
    And what I say is, before the end of this month, let's give 
states ample time to continue to administer this process and 
then make sure that we are making the investments in far better 
technology and get ahead of this, the way we want to plant a 
tree 20 years ago. We ought to get ahead of it. We ought not 
let the perfect be the enemy of the good. We ought to get it 
done before the end of this month. It stimulates the economy, 
and it helps Americans survive this.
    I thank the panel.
    And thank you, Mr. Chairman, for holding this very 
important hearing.
    Chairman Yarmuth. Absolutely.
    The gentleman's time has expired.
    I now recognize the gentleman from California, Mr. Panetta, 
for five minutes.
    Mr. Panetta. Thank you, Mr. Chairman. I appreciate that 
opportunity.
    I think, you know, Mr. Kildee, it goes down to what that 
person on that portrait says in our Budget hearing room. It is 
about governing through leadership rather than governing 
through crisis. And, unfortunately, when we don't make these 
types of investments, we are left with governing by crisis, as 
we have seen through this pandemic.
    Now, look, I think this pandemic obviously required a very, 
very bold response from Congress, and I think we gave them 
that. We gave the people that, with how we rose to the occasion 
with the number of the relief bills that we have passed, 
obviously the CARES Act being a great example of that.
    But this pandemic has also, as we have seen and is being 
highlighted by this hearing, Mr. Chairman, which I appreciate 
you putting on--it demonstrates that ignoring these types of 
delivery systems for these benefits can come with real costs. 
And the attempts to save federal dollars in the short term 
obviously have big costs in the long term.
    And, yes, we have been warned by the GAO and the inspectors 
general, but in choosing not to make these necessary upgrades 
to our federal IT systems, we have really undermined a 
significant aspect of our response in this pandemic and in this 
crisis.
    So it is important to have this hearing. It is important to 
learn from our mistakes. But it is also necessary that we do 
make the investments, the proper investments, going forward so 
that the next crisis we can be better prepared.
    Now, the coronavirus pandemic is, as we are seeing, not 
just a health crisis. It is not just an unemployment crisis. As 
I heard today on my local news, it is a hunger crisis. Since 
the onset of the pandemic, 34 percent of households with 
children have reported food insecurity in their household. The 
demand at U.S. food banks, as I have seen as I go out there and 
volunteer every week at food banks, has gone up by an average 
of 70 percent compared to the same time last year. And nearly--
this is what is interesting--40 percent of those waiting in 
line at the food banks are new customers, have never, ever been 
to a food bank before. Forty percent.
    Now, obviously, the Supplemental Nutrition Assistance 
Program has helped address this crisis, but the technology to 
deliver this program does need to be better, and it needs to be 
more efficient. And I think the obvious way do that is most 
likely with mobile phones, considering how many people have 
them.
    So, Ms. Dixon, I am going to pick on you for a little bit, 
and I want to see if you can tell us about the benefits and 
potential challenges that come with updating our technology 
delivery systems so beneficiaries can use smartphone technology 
that is so prevalent to access the federal nutrition assistance 
programs.
    Ms. Dixon. We know that, in particular, workers of color, 
so Black and Latinx families, are the least likely to have 
broadband or a computer in the home. Most of us have or have 
access to a smartphone. And so it just makes good sense to 
optimize all of these sites so that they will work with a 
smartphone.
    Mr. Panetta. Right.
    Now, in California, through our CalFresh Program but also 
with help from a USDA pilot program, we have been able to take 
steps so beneficiaries can use their SNAP dollars to purchase 
food online--if they can't go through a phone, at least they 
can do it online--for delivery through certain retailers.
    Ms. Dixon, can you speak to the value of that pilot 
program, if you are familiar with it, and the challenges we 
should be prepared for in expanding that program nationwide?
    Ms. Dixon. So I can't speak specifically to that program, 
but I can speak to the fact that, if we don't actually target 
the program, if we don't actually look at what the needs are 
for the most vulnerable, we create a program that is not 
accessible to them.
    So we have to actually start in the center with the most 
vulnerable and their needs, and then it is a concentric circle 
to help everyone else. But if we don't actually figure out what 
they need, they are not going to be served.
    Mr. Panetta. Are there any particular federal investments 
that we should be prioritizing to support that type of 
expansion on that program?
    Ms. Dixon. I think that making sure that we review the 
evidence from the pilot to find out what are the bright spots 
and how do we replicate what is working.
    Mr. Panetta. Great. Great. Ms. Dixon, thank you very much.
    Mr. Chairman, I yield back my time, unless, Ms. Pahlka, did 
you have your hand up?
    Ms. Pahlka. I would love to share that----
    Chairman Yarmuth. Ms. Pahlka wanted to add something.
    Mr. Panetta. Yes. Thank you, Mr. Chairman.
    Chairman Yarmuth. Go ahead, Ms. Pahlka.
    Ms. Pahlka. I worked significantly in SNAP over the past 10 
years through my role at Code for America, which I stepped down 
from in January.
    We, in fact, did create a mobile-first application for SNAP 
in California, starting with a couple of counties, and the 
state actually adopted it and required all counties to use. And 
prior to this application, you would need to be on a landline--
you know, on a computer with broadband, since you could not do 
it on mobile.
    But not only was it an issue of mobile access, the legacy 
application had over 212 questions, you couldn't save your 
work, and it took up to an hour. And so we made something that 
you could apply for SNAP in California on the mobile phone in 
about seven minutes, including using the camera on your mobile 
phone to take a photo of your driver's license, your paycheck, 
et cetera.
    And you asked about the benefits. Well, there have been 
many benefits. The cost of administration goes down. But, 
really importantly, we started to close the significant 
participation gap that existed in SNAP in California. The 
numbers were quite low, and it is going up as the state has 
adopted that.
    I just also wanted--and I think this is seen everywhere you 
put in a simple, beautiful, easy-to-use application. I also 
just really wanted to lift up what Ms. Dixon said. Design for 
the most marginalized will work for everyone else.
    A last brief comment about SNAP payments. There is a 
desperate need, I think, to modernize the marketplace for 
payments in the SNAP program. Those regulations were written, I 
believe, before the internet existed, and it means that you are 
not able to take advantage of the wonderful, robust, diverse 
marketplace of payment vendors.
    And while I am proud that we were able to get the ability 
for end users to use their benefits online, there remain 
significant problems with that program, including that it is 
limited in most states to just a few vendors, Amazon and 
Walmart, which hurts local businesses; the fact that you can 
use it for the groceries, but you can't use your SNAP payment 
for the delivery fees, which is a significant barrier; and a 
whole host of other problems which would be solved by simply 
modernizing the federal regulations that govern SNAP payments 
and creating a much more robust and modern marketplace.
    Chairman Yarmuth. Thank you very much.
    The gentleman's time has expired.
    I now recognize the gentleman from New York, Mr. Morelle, 
for five minutes.
    Mr. Morelle. Thank you so much, Mr. Chairman, and to the 
witnesses. This is really, really, I think, an important topic. 
I appreciate all the testimony. And I had written comments 
which I am going to, for the most part, pass on, because so 
many things have been said here.
    Clearly, you know, in a typical year, we would struggle 
with technology, I think, if you look at the investments we 
have not made at the state and federal government. This is 
hardly a typical year. So what we are facing is enormous 
dislocation in public health and economic--in our economy. And 
to have the systems we have, which are, I think, still largely 
legacy systems, is almost criminal, considering the challenge 
we are going to face.
    A couple things that people said, though, I did want to 
just maybe get some additional feedback.
    I was interested, Dr. Wah talked about telehealth and 
telemedicine. I see a day--and I think about just the 
technology I have on my wrist which keeps track of steps and 
heartbeat, et cetera. I envision a world, if we can get there, 
where you could almost do predictive analytics, that you have 
real-time data on an ongoing basis going to primary-care 
providers, or if you have chronic illness. The kinds of things 
you could do would enormously enhance the ability for people to 
even detect illnesses or things in their body chemistry before 
you even feel symptoms. But we are just not in a position, I 
think, at the healthcare side and given the challenges they 
face.
    So I am going to ask you to comment on that in just a 
second, Dr. Wah.
    I was also--Ms. Pahlka talked about useful tools, benefit 
eligibility. For three years, I have led a project in 
Rochester, New York, where I serve, where we are trying to 
break down the barriers between health, education, and social 
services and have a truly integrated delivery model literally 
be run by people in poverty and crisis. So they have single 
eligibility, that they log onto their smartphones, that they 
keep track of their data privacy and they control it.
    And people do want to focus entirely on the IT, and I think 
that is what we are working on a lot, how to bridge these 
things, how to have data sources talk to one another, how to 
create a data, you know, environment where the transfer of data 
is important, but it is also: How does it help workflows? I 
mean, the technology is interesting, but if people aren't 
working together and if we are not getting better outcomes and 
lower costs--the challenge is that there is so little 
investment. So I appreciate that.
    And, finally, Ms. Dixon, you said something about human-
centered design. This project that we are doing with people in 
crisis, people in poverty is all using human-centered design. 
Because you could have the best technology in the world; if 
people aren't comfortable with it, if they don't trust it, if 
it is not an environment that they feel they can use easily, it 
ends up being for naught. So human-centered design is a big 
part of what we are doing.
    And I would like to, offline, actually talk to each of you, 
because all the things you have said today and what we are 
doing Rochester--we want to be the first city in America that 
has completely integrated health, education, and social 
services. And we have been, as I said, working for three years 
on it. The state of New York has given us $15 million to invest 
in the technology and in the people who will work, so nurse 
practitioners, pediatricians, social-service people, people in 
housing, food insecurity.
    I also sponsored a bill called the HOPE Act, which would 
create innovation grants for people in the space around hunger 
and giving nutrition to people.
    So maybe you could each, sort of, comment on the 
challenges, I guess, first and foremost, about: What would be 
the plan? How would the federal government start? What are the 
first things we ought to be doing as a Congress, policy-wise, 
to try to address some of these things?
    And I did like what you said, Ms. Pahlka, that, you know, a 
10-year technology--you know, 10 years is a long timeframe. You 
are not going to have the newest technology if you wait 10 
years to get it done.
    So I am not sure who I am asking this of. If any of you 
could just comment on what we should be doing in the immediate 
steps, and then maybe just make some observations about the 
jumble of things I just said, which probably make virtually no 
sense.
    Dr. Wah. Congressman, I will jump out only because you 
started with my area of interest in healthcare. But I would 
say, what government needs to do is continue this investment 
that they have already made in what I call waves 2 and 3 in 
this virtual pool of information. As you stated, devices are 
coming up every day that are contributing to that pool. And 
that richer pool allows us the power of analytics to be applied 
to that and make many new discoveries.
    The other thing I would point out is what I talked about 
before, is the nonclinical use of healthcare information. As we 
talk about COVID and trying to go back to work and back to 
school, there is going to come a time when we are going to need 
to show status, whether you have already had the antibody or 
you have already had the vaccine, that is going to allow us to 
enter stadiums, movie theaters, transfer to another country, or 
an airplane.
    We need to figure out what is the technology that is going 
to allow that to happen, because we have never before put that 
kind of importance on your vaccine status. Your vaccine status 
used to just let your kids go to camp. But now we are going to 
have to figure out a verifiable way to say that you got the 
vaccine, you are immune, and you are safe to travel or go into 
a stadium or go into another country.
    Mr. Morelle. Yes.
    Well, look, if I could maybe take the prerogative of 
reaching out to each of you individually offline in my offices, 
because I think each of you had a great deal to contribute 
here.
    And, Mr. Chairman, this is a great--this is one of the few 
times I wish my five minutes were 10 minutes. But I do 
appreciate very much you hosting the hearing. I think this is 
really important for us to all consider.
    I yield back.
    Chairman Yarmuth. Thank you.
    The gentleman's time has expired.
    I now recognize the gentlewoman from Texas, Ms. Jackson 
Lee, for five minutes.
    Ms. Jackson Lee. Mr. Chairman, thank you so very much--I am 
unmuted, I believe--and thank you to the Ranking Member.
    I am going to be a living witness of how important this 
particular hearing is. Why I am so delighted to serve on the 
Budget Committee, because it digs deep into some of our most 
difficult issues.
    But let me, before I start my questioning to very quickly 
for the witnesses, remind everyone that COVID-19 in this arena 
of needs, because people are not in their normal places of work 
and interaction, technology has become--I hate to say the 
terminology--king in terms of working to save lives.
    Confirmed cases in the United States, 3.48 million, a 
61,000 increase in the last 24 hours; 138,000 deaths, a 787 
increase. In the state where I am, the epicenter, one of them, 
281,000 cases confirmed, a 10,745 increase; 3,378 deaths, an 87 
increase overnight. In my own community, 70,000 cases in 
Houston, 2,000 cases in the last 24 hours; 653; 676 deaths and 
18 deaths over the last 24 hours.
    We are in the most desperate moments of our tenure, or our 
time, as a city and as a region. And we feel, to a certain 
extent, lost because of the inadequacies of some of the 
policies that we are facing.
    Let me particularly focus on the backlog-of-veterans'-
benefits-claims spike during the last few months. According to 
the data released in May, the backlog of claims for veterans' 
benefits, those that have yet to be addressed for 125 days or 
longer, has crept up to over 100,000, which is unacceptable.
    So I would ask my first question--and I listened, and I do 
agree that these are hardworking public servants in our state 
and our federal government, but the system just doesn't help 
us. They are a federal agency, besides veterans, where citizens 
cannot even access to help them do simple things like file my 
taxes, get tax transcripts, because the individuals cannot 
access their system.
    So my question is to Teresa Gerton, because, what do we do 
when it comes to public services? What is your answer as it 
relates to the veterans crisis that we are having?
    Jennifer, if you would add to that as well.
    And then to Ms. Dixon and Mr. Wah: People are feeling the 
pain of unemployment. I know that our state has said, Texas has 
said, if we don't extend unemployment, there will be a 
disruption. And so I am interested in your response, again, on 
how devastating that impact would be, inasmuch as people are so 
desperate for the unemployment, the $600.
    And, Dr. Wah, you made a very important point about 
vaccines technology. There is a company that is U.S.-and Texas-
based, Greffen. What is the importance of technology in moving 
the vaccine research along, Dr. Wah, and doing it where we can 
focus on companies that are, in fact, U.S.-based? Not to the 
exclusion, but these companies are struggling to be a part of 
this. They are small companies. I think technology would be 
very helpful.
    Veterans question, employment question, and COVID-19 
question on vaccines.
    Could you start out, Ms. Gerton, very quickly?
    Ms. Gerton. Congresswoman, I am happy to do that. As a 
veteran myself, I appreciate your question about how well the 
VA is addressing veterans' benefits claims.
    I would circle back to one of the earlier questions about 
the electronic health record. The VA has made tremendous 
progress through VA.gov in addressing and being a more 
customer-centered delivery mechanism. But they are still 
governed by extraordinarily arcane regulations about 
eligibility, about processing. And, in many cases, we still 
require a human in the loop.
    The Academy did a study with the Veterans Benefits 
Administration about three years ago on the backlog of 
veterans' claims and how they could reduce them, suggesting, 
amongst other things, that they create, for example, a robotic 
process automation tool that would categorize those claims into 
ones that are very straightforward and could be dealt with 
quickly and in a totally automated way and ones that are more 
complicated that require more in-depth human interaction.
    We certainly want to make sure that every veteran receives 
the benefits to which they are entitled and that we do it in a 
way that is responsive. And so, as the VA considers these 
alternatives, I think there is a tremendous opportunity to 
automate some of those----
    Ms. Jackson Lee. Can I get the others to answer, Ms. 
Gerton? Thank you so very much.
    Ms. Gerton. Sure. Thank you.
    Ms. Jackson Lee. Jennifer, can you very quickly--because I 
noted that they are backlogged. They are not being helpful at 
this point, I think, because of technology.
    Then Ms. Dixon and Dr. Wah.
    Can you do that very quickly?
    Thank you.
    Ms. Pahlka. Sorry. Did you want me to go now or Dr. Wah?
    Ms. Jackson Lee. No. Very quickly, if you can. I am trying 
to get you and Dixon in, while they have two separate 
questions.
    Ms. Pahlka. On the VA, I am not current on that.
    But I would point to the fact that the progress with 
VA.gov, which Ms. Gerton spoke to, is the result of this new 
model that I keep speaking about that does work. It was done 
originally by the USDS that sort of became part of the VA under 
CTO Charles Worthington, who is excellent at this. And I think 
the VA should continue to leverage that group in particular to 
make the progress that they need to make to clear that benefits 
backlog.
    Ms. Jackson Lee. OK.
    They are having problems, but I will continue on. Ms. 
Dixon? Dr. Wah?
    Ms. Dixon. So, in terms of the $600, if it goes away, we 
are talking about getting rid of 50 to two-thirds of the income 
of folks at the end of month, so right before rent is due, and 
that is crashing into the fact that we are having upticks, as 
you mentioned, in the states in COVID cases. So some folks who 
were off might need to go back on.
    And then add to that the expiration of rent moratoriums and 
mortgage assistance in certain states. It is just a really 
horrible time to add on top of that two to three weeks' delay 
to change the program because we want to reduce the amount.
    Dr. Wah. And if there is time, I will just very quickly 
talk about vaccines and----
    Ms. Jackson Lee. Dr. Wah, quickly, thank you. Dr. Wah, 
quickly, as it relates to vaccines and companies.
    Dr. Wah. Yes. So, just as it relates to vaccines, I will go 
back to my original comment about waves 2 and 3. These virtual 
pools of information that we have on our patients are going to 
be very helpful in accelerating our development and finalizing 
vaccines. And the U.S. companies will have access to this 
primarily.
    So, once it is out there, we will be able to monitor those 
patients through this virtual pool of information, in a way we 
previously could not through classic clinical trials.
    Ms. Jackson Lee. Great.
    Mr. Chairman, I thank you for your indulgence.
    I just want to put on the record my question about the 
Veterans Administration because I don't think I was--they are 
backlogged, and I will write a letter about that.
    Thank you, Mr. Chairman.
    Chairman Yarmuth. Absolutely. Absolutely.
    The gentlewoman's time has expired.
    I now recognize the gentleman from Nevada, Mr. Horsford, 
for five minutes.
    Mr. Horsford. Thank you, Mr. Chairman.
    Since February of this year, more than one in four Nevada 
workers have lost their jobs statewide, pushing the state's 
unemployment rate to 30.1 percent. That is the highest level 
ever reported by any state in modern history and generating an 
unemployment insurance caseload orders of magnitude higher than 
anything the state has witnessed previously.
    I have heard directly from my constituents during regular 
telephone townhalls during this pandemic, in which so many of 
them have expressed their frustrations about how difficult it 
has been to navigate the unemployment system, from website 
crashes, to waiting several hours on the phone before getting a 
response, to having trouble resetting their passwords.
    Now, the Families First Coronavirus Response Act, which we 
passed in law back in March, included a provision from my bill, 
H.R. 6199, the Emergency Unemployment Insurance Stabilization 
and Access Act, which provided a billion dollars in grants to 
state unemployment offices.
    Nevada received a little over $10 million. Those grants 
have been used to increase staffing, update information 
technology systems, and process the onslaught of unemployment 
insurance claims that have been coming in.
    We have provided a billion dollars to states. I do not 
think we realized how difficult it would be for state UI 
offices to produce on such an outdated technology system. And I 
have had many calls with Nevada's State unemployment office 
about the issues, and I know that Nevada is not alone.
    So, Ms. Gerton, Ms. Pahlka, and Ms. Dixon, can any of you 
explain why states have struggled to update their unemployment 
forms and payment systems under the Federal Pandemic 
Unemployment Compensation Program?
    I am particularly interested to know the various steps 
unemployment offices had to take in order to even upgrade their 
systems with the Department of Labor.
    Ms. Pahlka?
    Ms. Pahlka. I think I spoke over my colleague Ms. Dixon 
earlier, so let me let her take the lead this time.
    Ms. Dixon. One of the important things is making sure 
that--I am sorry. I lost my train of thought when you were 
speaking.
    Mr. Horsford. Well, your testimony pointed out that the 
national administrative funding for UI systems is essentially 
unchanged from almost 20 years ago.
    Ms. Dixon. Right.
    Mr. Horsford. And so my question is, what could the states 
have been able to do without the support from the Department of 
Labor to set those standards and even to recommend the type of 
systems that should have been put in place?
    Ms. Dixon. We have the system that we have invested in. So 
we haven't invested in it. And we know, as the Chairman 
mentioned at the top, that the same funding from 2001, in terms 
of administrative funding--there is no dedicated funding for IT 
in particular, so states are having to try to squeeze that out 
of what they do get.
    So we do need to actually take this seriously and have 
dedicated funding and a plan to get all the systems modernized, 
including those standards. So doing it in a way where we are 
putting people first and we want to know: How are they 
interacting with the system? Do we need to simplify the 
questions? There are lots of things that we can do to marry the 
policy with the funding.
    Mr. Horsford. Ms. Pahlka?
    Ms. Pahlka. To your specific question of what does it take 
to update these systems, I think I would just provide a little 
bit of detail.
    You have these systems that have really accrued over 
decades. We think of them as archeological layers, where people 
have made tweaks to an original system from many, many years 
ago over and over and over again. And so, when you are asking 
them to update, it is not simple.
    In fact, in many cases, you have either just one employee 
left who remembers how this script was written or that script 
was written and how to actually do something and make this 
change. And, in some places, you have, sort of, nobody left who 
knows how to do it, or they are relying on a vendor that--
again, that speaks to the cost of maintenance of these systems 
that has come up earlier in these hearings.
    But the complexity of these changes really cannot be 
overstated.
    Mr. Horsford. Yes. It is extremely frustrating, especially 
for the gig workers, the independent contractors. The employers 
or the companies that they work for can't even submit 
verification.
    And I loved your idea about establishing a nationwide 
verification system, something like E-Verify for companies that 
are national or multinational, in order to verify the wages 
that were paid to those employees.
    That is the biggest issue that we are facing here in 
Nevada. There has been no guidance provided by the Department 
of Labor, or little guidance. There is no recommendation for 
the types of systems that would actually work. And so we have a 
piecemeal approach in 50 different states. And it is all 
outdated, it is all antiquated. And yet Congress appropriated a 
billion dollars.
    So we need to move this forward and create solutions now 
while we address the longer-term, kind of, systemic issues.
    So I know my time is up. I did want to just raise one 
point, Mr. Chairman, and I will submit it for the record. But, 
under Department of Agriculture, children and families that are 
eligible for SNAP or free and reduced meals based on their 
income eligibility, that information is not shared with the 
Department of Education in order for them to get free internet 
service. And that is contributing to the digital divide.
    And, again, it is something that Congress can fix. It is 
something that, through guidance from our federal agencies, we 
can address. And I hope that my colleagues would work with us 
to improve that for our children and families in this country 
right now during this pandemic.
    Thank you, and I yield back.
    Chairman Yarmuth. OK.
    The gentleman's time has expired.
    I now recognize the--I guess he is the Acting Ranking 
Member now, the gentleman from Georgia, Mr. Woodall, for 10 
minutes.
    Mr. Woodall, we are not getting your audio. If you want the 
staff to unmute you, just nod.
    Mr. Woodall. Can you hear me, Mr. Chairman?
    Chairman Yarmuth. There we go. Yes, we hear you, Mr. 
Woodall.
    Mr. Woodall, we hear you. We did.
    Mr. Woodall. Thank you very much----
    Chairman Yarmuth. There you go.
    Mr. Woodall [continuing]. Mr. Chairman. I appreciate the 
indulgence. It is easier to do this from my living room than it 
is from your committee room, and I don't blame you for that. I 
credit the living-room environment that we have all gotten used 
to.
    Dr. Wah, I wanted to start with you. I think about all the 
crises and the responses that have been talked about today, and 
then I think about what HHS did in response to that crisis. We 
are going to promote telemedicine. We are going to allow 
telemedicine to be used in ways we didn't allow before. But we 
are only going to do that through the end of the crisis.
    Tell me about some of the problems that we have seen in the 
expansion of telehealth within the Medicare system over the 
past three months that would lead us to want to pull that 
system back instead of make that expansion permanent.
    Dr. Wah. Thank you, Congressman.
    I think first and foremost is what I said before, is that 
we need to make sure that the telemedicine visits are the same 
as in-person visits and that they are connected to our virtual 
pool of information that I talked about.
    So one thing is, we don't want them to be isolated so that 
they are not getting information out of the pool to help the 
telemedicine appointment be richer and better. And when the 
appointment is finished, they need to put information back into 
the pool. So that would be consistent with my waves 2 and 3.
    But the other thing that people have been concerned about 
with telemedicine, and I think it is imminently solvable, is 
this issue of whether or not it is going to open the door to 
fraud and abuse. I think overuse of telemedicine is very 
unlikely. It is no more likely that we are going to overuse 
telemedicine than we are going to overuse in-patient, in-person 
use of healthcare. Very rarely do people wake up and say, ``I 
feel like calling my doctor six times this week.'' So I don't 
think it is going to be overused. But that is a concern, and I 
think there are ways to put constraints on that and put 
guardrails on it so it doesn't become a problem.
    But I think it is recognized that it is safe, it is 
effective. And it is very well-accepted to use telemedicine. It 
has been around for over 20 years, but it is really come to be 
highly useful in this environment when face-to-face interaction 
is so much more challenging.
    Mr. Woodall. I have concerns about our desire to make sure 
things are qualitatively the same. We have opportunities to 
expand access. And I don't expect my telemedicine visit to be 
qualitatively the same. I used to have to get in the car, drive 
four and a half hours, sit in the waiting room for an hour, and 
get back in the car and drive four and a half hours back home. 
I would be willing to accept something that is slightly 
different as long as my family decides that it is a superior 
value, my constituents' families decide it is a superior value.
    As Ms. Dixon said earlier, we have the systems in place 
that we have paid for. We have created a set of expectations 
around the in-person healthcare visits that we are trying to 
replicate.
    As we think about what we are doing this year, next year, 
10 years from now, how important is it that we stay tethered to 
that ``I want it to be qualitatively the same'' as opposed to 
``I want to utilize it for what it is, and then I want to 
utilize something else for what it isn't''?
    Dr. Wah. Yes, I would love to use this as a comment. One of 
the things that I think would solve a number of things is, we 
have talked a lot about the historic fee-for-service system of 
medicine where we pay for everything we use and as we use it.
    But if we move, as we are trying to, to value-based care, 
where it is--as you said, the outcome for you and your family 
is the prize. It is not how many times you have visited or how 
many issues you have had. It is, are you and your family 
getting healthy and staying healthy? That is what we pay for, 
and that is what we incentivize. Then the private sector will 
find ways to achieve that goal. And it will be a mix of in-
person care and virtual care, but it will get to the end goal 
of you and your family being healthier and better.
    And, if we do that, all of these things that we are talking 
about will be driven by competition, to make sure that the 
marketplace meets that need to deliver the best product to you 
and your family so you are healthier and better because of it.
    Mr. Woodall. Well, Ms. Pahlka was right when she described 
the archeological dig that is our computer systems today. I am 
going to use that again.
    We can't change things without being intentional. The Bush 
Administration tried. The Obama Administration tried. If you 
would have asked me a decade ago if our EHR mandate was going 
to have me in 2020 without the ability to walk into any 
physician's office anywhere in the nation and have my records 
transferred in in real-time, I would have said, no, of course, 
we are going to have that kind of functionality. We were 
intentional. We provided incentives. We provided penalties. We 
gave a five-year lead time. And here we are without the 
functionality that we desired.
    Now, tell me where the failure was. You just lauded the 
private sector and its ability to solve problems. We have all 
talked about the government's need to be intentional in this 
space. I thought that we combined those two in the EHR mandate, 
but we have not met my expectations. Tell me a little bit about 
where we went wrong and what we should be doing differently 
going forward.
    Dr. Wah. I am sorry. Were you addressing that to Ms. Pahlka 
or myself?
    Mr. Woodall. Dr. Wah, I was directing it to you. But, Ms. 
Pahlka has identified the flaw----
    Dr. Wah. Oh, OK.
    Mr. Woodall [continuing]. but, in the case of EHR, we 
started from scratch. We didn't have the archeological-dig 
problem. We said, we are going to walk in on day one, we want 
everybody to go out and buy a brand-new system, and we are 
going to create a real, tangible benefit in terms of quality 
and cost for the American healthcare public.
    Dr. Wah. Yes, so I think we did accomplish what I call wave 
1, which was to get off of the paper-records system, which we 
sometimes forget how bad that was. When you want to talk about 
archeological digs, we used to have patients come in with 
shopping bags of paper. That has passed away, fortunately. So 
going to digital has helped, and that was a significant 
achievement of that effort that you talked about.
    The interoperability is still a challenge, and creating 
that virtual pool of interoperable information is an ongoing 
process that we are still doing. And I would submit, some of 
those reasons are not technology but business reasons. So 
sometimes there were business reasons why people didn't want to 
share information. We just passed, in the 21st Century Cures 
law, information-blocking rules to prevent those business 
things that are preventing interoperability.
    So it is not solely a technology problem; it is a 
regulatory, legislative, and statutory problem that we have to 
continue to address.
    Mr. Woodall. Well, it is not lost on me that, in order to 
provide the kind of care that we all know our senior citizens 
need in this time of the pandemic, that HHS had to waive some 
HIPAA privacy rules and direct the Office of Civil Rights not 
to enforce some of those rules so that we could use those 
modern technologies that we are all accustomed to using to 
achieve those goals.
    Ms. Pahlka, tell me about this from a practitioner's 
standpoint. We did say ``start from scratch'' with your 
electronic health records systems. Physicians did go out and 
buy these for the very first time. And here we are a decade 
later, and we don't have the interoperability.
    I couldn't have possibly predicted the state of technology 
in 2020 back when the American Recovery and Reinvestment Act 
was passed a decade ago. So what would you advise us to do as 
legislators to mandate enough on the front end to achieve our 
goals but not mandate so much that we miss the opportunity for 
innovation?
    Ms. Pahlka. It is an excellent question. I am not going to 
be as expert or useful on the EHR issue as Dr. Wah will be. It 
is a specific, sort of, mega-project in government that has, 
you know, plagued many, many administrations. It has gone back 
a long time. And I don't pretend to know what to do about it 
now.
    The pattern I see is that, when we are successful with 
implementations like this, it is because we start small and 
learn as we go. And it was very hard to do that in the EHR 
context. But we can do that in other contexts. And we have 
successfully done it in other contexts. But I think that is not 
how EHRj started. It started as a very heavy requirements-
driven, extremely well-funded effort that had all the hallmarks 
of a failed mega-project.
    I am sorry I can't be more helpful.
    Mr. Woodall. I hear that, ``start small and go big.'' And I 
want to cast that against the concerns I have heard so many 
folks express about the different unemployment systems we have, 
of course, where we have 50 different systems in 50 different 
states. That is going to be a constant tug.
    And, Mr. Chairman, I know that you have called this hearing 
because you want us to be intentional in this way.
    I hope that our efforts to solve 50 separate problems that 
we have heard so often and that we are all committed to solving 
don't trample that good advice that Ms. Pahlka has given, that 
some of our most successful efforts in this area have started 
small, proven the concept, and then we grew them out to the 50 
states, as opposed to that single mandate from on high.
    So thank you, all the witnesses, for being here.
    And thank you, Mr. Chairman.
    Chairman Yarmuth. I thank the gentleman.
    His time has expired.
    I now yield myself 10 minutes.
    And let me begin by thanking all the witnesses, not just 
for your testimony in this live portion but for your written 
testimony as well. I was actually kind of stunned in reading 
testimony about what is a fairly wonky subject, how accessible 
and how logical it was. I was very impressed with all of you. 
As somebody who is not as attuned to IT as many, many others, I 
really got it.
    And there was a revelation there, particularly with Ms. 
Pahlka and Ms. Gerton's testimony, that one of the issues that 
we seem to have is an issue of perspective.
    And when we are talking about medical health records, I 
remember, I was here when we drafted the ACA and we were 
working on those provisions, and the idea was, how do we gather 
all this information? It was not, what is the purpose of 
gathering the information? It was, how do we gather it, and how 
do we incentivize the doctors to do it, as opposed to actually 
thinking about the end product and the people we were going to 
engage and what it was going to mean to them.
    And I think for the first time I have actually started to 
think, reading the testimony--and I think, Ms. Pahlka, you 
specifically said this, I thought of the government as a ``-
customer service organization.'' And I don't think we do that 
nearly as much. And so that was kind of a revelation I thank 
you for.
    The other thing why a lot of the testimony resonated very 
deeply with me is, one of my standard lines when I am out 
talking and talking about Congress is I say, you know, ``We 
have a dilemma, and that is that Congress, at its optimum 
efficiency, moves at 10 miles an hour,--right now, we are at 
two or three miles an hour--meanwhile, the world is moving at 
100 miles an hour.'' And how--can we possibly make policy that 
anticipates where the world is going?''----
    You know, we generally legislate, it has been my 
experience, as if we are target shooting instead of skeet 
shooting. We need to be shooting where the target is going to 
be, not where it is now. And that is certainly part of the 
issue here.
    And when we think differently, when we stop thinking about 
equipment and investment in equipment, and thinking about 
functionality and purpose, it seems like that is absolutely the 
right way to approach this issue, but I am not sure that 
Congress is equipped to do it.
    So I would start by asking Ms. Pahlka if--I am not aware of 
any concerted congressional effort to deal with this problem. 
And certainly in different areas of jurisdiction it has come 
up, and we have discussed it, kind of, on an ad-hoc basis. One 
of the things that I always think about is, we don't spend 
nearly enough time in Congress thinking about and discussing 
how to make the government work better. And that should be a 
primary function of ours.
    And I know, Mr. Woodall, we have had conversations like 
this, that I am one of these Democrats who does not believe 
that every regulation is a meaningful, helpful, beneficial 
regulation. And we ought to be spending a lot more time 
thinking about what we are doing that makes a difference in the 
way government functions and in people's lives, and not about a 
lot of the things we think about.
    So, I mean, if you were in our position--and I will start 
with Ms. Pahlka--and you want to create a congressional effort, 
what would be the first place you would go?
    Ms. Pahlka. What an excellent question, and a difficult 
one.
    I think that all efforts work when they have concrete 
successes behind them that start to actually show the American 
public that things can be different. So I would actually 
champion a couple of very specific projects that I think 
Congress could move along more quickly.
    And Congress, obviously, wouldn't be implementing them. You 
would need USDS----
    Chairman Yarmuth. Right.
    Ms. Pahlka [continuing]. or one of these places to do 
something, like speed the delivery of UI benefits. And, 
frankly, the thing that I have spoken about here where you 
could potentially speed eligibility determinations and reduce 
the wait times is relevant.
    My thing is, always start small. You would start with one 
state; you would expand it. But you could also start with one 
benefit, like UI, and then expand it to other benefits. 
Eligibility rules are different across different benefits.
    One of the members spoke about SNAP, which is critical at 
this time and also facing challenges, as it has had the same, 
sort of, expansion of both benefits and programs. But 
eventually you could create centralized service that sped the 
determination of eligibility across a number of benefits.
    And I think what is really important is not just that we 
speed government for its own sake but that the people who are 
waiting on those benefits start to see a difference.
    So I would just do something very concrete, get behind it, 
and figure out along the way all of the attacks that come on 
it, all of the barriers to it, and just start, one by one, use 
your power to remove those barriers and get the job done.
    Chairman Yarmuth. Thank you.
    And, Ms. Gerton, I want you to answer that as well, but I 
also want to throw in that both of you mentioned the notion of 
agility. And I understand the word; I am not sure I understand 
how it applies here. So, if you could kind of elaborate on 
that, Ms. Gerton, as well as where you would go if you were 
directing Congress right now.
    Ms. Gerton. Thanks, Congressman. I think I would offer two 
suggestions.
    We talked already today about the importance of SNAP and 
the importance of UI benefits to deliver crisis services. One 
of the things that we have been working on is the idea of 
providing more flexibility to the grant-writers at the federal 
level to allow the recipients of those grants to integrate 
their systems.
    And if I can give you a quick example. When I was at the 
Department of Labor, I was responsible for overseeing the 
Homeless Veterans Reintegration Program. It was a fairly small 
grant that provided training opportunities for homeless 
veterans to return into the work force.
    Interestingly, the grantees who received our grants also 
received grants from the VA, received grants from HUD, and they 
received a variety of grants. Because of the way the grants 
were structured, they had separate IT systems to report on the 
compliance for every one of those grants, which placed an 
extraordinary administrative cost on them, which kept them from 
integrating those funds in a way that could better deliver 
outcomes for homeless veterans.
    So one of the things, as Ms. Pahlka just mentioned, if you 
focused on UI, for example, or SNAP, thinking about all of the 
grants that those grantees are receiving and making it easier 
for them to combine them, in a way that still provides the 
accountability that Congress needs, but that helps them 
optimize the delivery of services for their constituents, would 
be a huge first step. It is not removing regulations, but it is 
providing flexibility.
    The second place I would suggest is sort of a back-office 
approach, right? At the federal level, we understand that hot 
systems, for example, could deliver better finance and 
accounting than our customized systems, could deliver better 
H.R. services. But those are sold, sort of, as software-as-a-
service. We don't need a big requirements process to tell us 
how to do best HR.
    So allowing the flexibility for shared services, allowing 
people to buy them as a service, where that service is 
maintained in the cloud, where it is kept constantly updated, 
where the cybersecurity is much tighter than, for example, any 
agency who hasn't had the time invest and is running on 
vulnerable software.
    You could add flexibility in the shared services space and 
simplify back office, which would free up additional 
administrative costs. And you could allow flexibility on the 
front-office side in service delivery so that grantees could 
better mix their funds to deliver outcomes for their clients.
    Chairman Yarmuth. OK. Well, thank you very much.
    My time is running down, and even though I have the gavel, 
I am not going to abuse that, even though Rob wouldn't mind.
    I am so glad that you mentioned artificial intelligence in 
your testimony, Ms. Gerton. And one of the things,--when I am 
out speaking, I say, there are three things that we absolutely 
have to focus on now if we are going to have a viable future, 
and one of them is climate change, and one of them is early 
childhood education, and the third one is how we are going to 
deal with artificial intelligence. I think it is that critical.
    And we, at some point, are going to have a hearing on 
artificial intelligence and what it might mean for the budget 
going forward, because, clearly, there are dangers with 
artificial intelligence and enormous opportunities.
    So I am glad that you mentioned that, because that is going 
to have to be a part of our technological future, and we need 
to start thinking and talking about that right now as to how we 
are going to integrate it in a way that does serve our 
customers. And so you have given me a new mantra that I am 
going to talk about a lot, ``sometimes citizens, sometimes 
taxpayers, but always customers of the government.''----
    But, anyway, with that, I will, once again, thank all of 
the witnesses. It has been an extremely valuable discussion. 
And, again, I think the record of our live hearing and also the 
written testimony is going to be a substantial record that we 
can rely on and Members of Congress can rely on as we start 
thinking about how we deal with some of these issues.
    So, with that, thanks again for your participation. Thanks 
to Mr. Woodall for staying with us till the end.
    And if there is no further business before the Committee, 
this hearing is adjourned.
    Thank you.
    [Whereupon, at 4:07 p.m., the Committee was adjourned.]

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]
</pre></body></html>
